__________________________________________________________________
No. ______
__________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________________________________
OCTOBER TERM, 2020
_____________________________________________________________
JOSE ANTONIO MARTINEZ
Petitioner,
against
UNITED STATES OF AMERICA
Respondent.

APPENDIX

/s/ Bruce R. Bryan
_________________________
BRUCE R. BRYAN, ESQ.
Counsel for Petitioner
Jose Antonio Martinez
131 West Seneca St., Suite B - 224
Manlius, NY 13104
(315) 692-2011

1

INDEX TO APPENDICES
APPENDIX A: Opinion of the United States Court of Appeals
for the Second Circuit in United States v. Martinez, 991 F.3d 347
(2d Cir. 2021) ...................................................................................... 3
APPENDIX B: Constitutional and statutory provisions involved…….32

2

APPENDIX A
991 F.3d 347
United States Court of Appeals, Second Circuit
__________________
August Term, 2016
Submitted: January 27, 2017 Last Submission: September 19, 2019
Decided: March 16, 2021
Docket No. 15-1384-cr
UNITED STATES OF AMERICA,
Appellee,
— v. —
JOSE ANTONIO MARTINEZ, AKA YOYO,
Defendant-Appellant,
B e f o r e:
CABRANES and LYNCH, Circuit Judges.
* * Judge Ralph K. Winter, originally a member of this panel, died on December 8,
2020. This appeal has been decided by the two remaining members of the panel,
who are in agreement. See 28 U.S.C. § 46(d); 2d Cir. IOP E(b); United States v.
Desimone, 140 F.3d 457, 458-59 (2d Cir. 1998).
3

Jose Antonio Martinez appeals from a judgment of the United States District
Court for the Eastern District of New York (Garaufis, J.) sentencing him to 20
years in prison on his plea of guilty to participating in the affairs of a criminal
enterprise, specifically, the “MS-13” street gang, through a pattern of racketeering
consisting of, among other crimes, murder and a separate count of discharging a
firearm during a crime of violence. Martinez appealed, initially arguing only that
his sentence was substantively unreasonable. While his appeal was pending, the
United States Supreme Court decided Johnson v. United States, 576 U.S. 591
(2015), holding that the “residual” clause of the Armed Career Criminal Act of
1984 (“ACCA”), 18 U.S.C. § 924(e)(2)(B)(ii), is unconstitutionally vague. Then,
in United States v. Davis, 139 S. Ct. 2319 (2019), the Supreme Court reaffirmed its
adherence to the categorical approach in the context of 18 U.S.C. § 924(c) and
found the “residual” clause in § 924(c)(3)(B) unconstitutionally vague. In light of
Davis, this Court then decided United States v. Barrett, 937 F.3d 126 (2d Cir.
2019), vacating a conviction under § 924(c)(3)(B) for using a firearm in the course
of a conspiracy to commit a Hobbs Act robbery. Relying on Johnson, Davis, and
Barrett, Martinez now argues, for the first time on appeal, that neither of the
charged racketeering offenses are violent crimes and that his firearm conviction is
therefore legally invalid. Finding no plain error, and rejecting his additional
contention that his sentence is substantively unreasonable, we AFFIRM the
judgment of the district court.

Susan Corkery and Audrey Spektor, Assistant United
States Attorneys, for Robert L. Capers, United States
Attorney for the Eastern District of New York, Brooklyn,
NY, for Appellee.
Bruce R. Bryan, Syracuse, New York, for DefendantAppellant.

4

GERARD E. LYNCH, Circuit Judge:
On April 22, 2011, Jose Antonio Martinez, an associate of the violent La Mara
Salvatrucha (“MS-13”) gang, pled guilty in the United States District Court for the
Eastern District of New York (Nicholas G. Garaufis, J.) to all counts of a threecount superseding information charging him with substantive and conspiracy
violations of the Racketeer-Influenced and Corrupt Organizations Act (“RICO”),
18 U.S.C. §§ 1962(c) and (d), and discharging a firearm during a crime of
violence, 18 U.S.C. § 924(c)(1)(A), pursuant to a plea agreement calling for his
cooperation with the authorities in their investigations. The pattern of racketeering
underlying the substantive RICO charge included: (1) the murder, in violation of
New York State law, of John Halley; (2) conspiracy to murder members of a rival
gang; and (3) conspiracy to distribute narcotics.
The government later concluded that, although Martinez had provided them
with useful information, he had not been fully forthcoming in his cooperation, and
declined to file a motion in support of a sentence below the recommendations of
the Sentencing Guidelines and the applicable mandatory minimum sentence for the
firearm offense. On April 15, 2015, he was sentenced to concurrent ten-year terms
of imprisonment on the racketeering counts and a mandatory consecutive ten-year
term on the firearms charge. The charges and guilty plea were, at the time,

5

sufficiently non-controversial that when Martinez appealed, he did not raise any
objection to his conviction, challenging only the reasonableness of his sentence.
Just a few months after Martinez’s sentence, however, the Supreme Court
decided Johnson v. United States, 576 U.S. 591 (2015), holding that the “residual”
clause of the Armed Career Criminal Act of 1984 (“ACCA”), 18 U.S.C. §
924(e)(2)(B)(ii), is unconstitutionally vague. In consequence, Martinez filed a
supplementary brief contending that his conviction for violating § 924(c) should be
reversed. Then, in United States v. Davis, 139 S. Ct. 2319 (2019), the Supreme
Court invalidated the “residual” clause in § 924(c)(3)(B) as unconstitutionally
vague. At this Court’s request, the parties filed supplementary briefs addressing the
effect of Davis on Martinez’s § 924(c) conviction.
The case requires us to revisit our precedent in United States v. Ivezaj, 568
F.3d 88 (2d Cir. 2009), which held that a RICO offense based on two violent
racketeering predicates is a violent crime for the purposes of § 924(c). Because
Davis’s effect on Ivezaj’s holding is unclear, we conclude that Martinez has failed
to show plain error. We therefore AFFIRM Martinez’s conviction and sentence.
BACKGROUND
The criminal conduct for which Martinez was sentenced has never been in
dispute. Martinez was associated with the MS-13 gang, which he knew to be an
organization that commits criminal acts, including murders. After learning that his

6

girlfriend had left him for a member of a rival gang, Los Vatos Locos, Martinez
approached the leader of the Flushing, Queens, branch of MS-13 and sought his
assistance in finding and killing the man his ex-girlfriend was now seeing. With
the gang leader’s blessing, Martinez and other MS-13 members traveled several
times from Queens to Yonkers, searching for the man, or for other members of Los
Vatos Locos, in order to kill them; on at least one of these occasions, Martinez
himself carried a gun with the intention of killing the man himself.
On September 29, 2007, the last of these expeditions, Martinez drove while
another gang member, Hector Aleman Lemos, carried the gun. Martinez was
unable to find his rival, but he did spot a group of men standing on the street whom
he believed to be members of the Vatos Locos. Martinez, Lemos, and the other
MS-13 member in the vehicle decided to shoot at the group. Lemos got out of the
van and walked towards the men with a .38 caliber revolver; Martinez then heard
several shots. Lemos ran back to the van and said he had hit someone. He got back
in the van, and Martinez drove away. It was later learned that Lemos’s shots had
killed John Halley. There is no evidence that Halley was affiliated with Los Vatos
Locos or with the man against whom Martinez held his grudge.
In July 2010, Martinez was indicted and charged with conspiracy to commit
murder for the purpose of maintaining and advancing his position in a racketeering
enterprise in violation of 18 U.S.C. § 1959(a)(5), and possessing a firearm during a

7

crime of violence during which the firearm was brandished and discharged, in
violation of 18 U.S.C. § 924(c)(1)(A). Pursuant to a plea agreement, Martinez
eventually pled guilty to all counts of a superseding information that charged him
with participating in the affairs of an enterprise, the MS-13 gang, through a pattern
of racketeering, in violation of 18 U.S.C. § 1962(c); conspiring to do so, in
violation of 18 U.S.C. § 1962(d); and using and carrying a firearm during a crime
of violence during which the firearm was brandished and discharged, in violation
of 18 U.S.C. § 924(c)(1)(A). The charged pattern of racketeering consisted of three
racketeering acts: the murder of John Halley, a conspiracy to murder members of
Los Vatos Locos, and a conspiracy to distribute cocaine.
The information charged that the firearm had been brandished and
discharged during the substantive and conspiracy RICO violations. During his plea
allocution, Martinez described the events of the night of September 29, 2007 as the
conduct that made him guilty of the firearms offense. On April 10, 2015, he was
sentenced in the United States District Court for the Eastern District of New York
to concurrent ten-year terms of imprisonment on the racketeering counts, and a
mandatory consecutive ten-year term on the firearms charge.
Martinez filed a timely notice of appeal on April 28, 2015. His initial
argument on appeal was that his sentence of 240 months’ imprisonment was
substantively unreasonable, relying primarily on his attempted cooperation,

8

personal circumstances, and the fact that he did not personally shoot Halley. At no
time during the district court proceedings did Martinez, who was at all times
represented by counsel, object to the legal sufficiency of the count in the
superseding information charging a violation of 18 U.S.C. § 924(c). However,
Martinez, through counsel, filed a supplemental brief in September 2016 arguing
that Johnson called into question his conviction on that count. Then at the Court’s
request, the parties submitted supplemental briefing to address Davis’s relevance,
if any, to this appeal. Martinez has now added a new argument on appeal: Johnson,
Davis, and this Court’s circuit precedent in Ivezaj and United States v. Barrett, 937
F.3d 126 (2d Cir. 2019) (“Barrett II”) require the vacatur of his § 924(c)
conviction. Because he argues that the change in the law affects the voluntariness
of his plea, Martinez also asks this Court to vacate his RICO convictions, set aside
his guilty plea, and remand the case to allow him to decide whether to negotiate a
new guilty plea or go to trial. Lastly, Martinez adheres to his initial argument that
his total sentence of 20 years’ imprisonment was substantively unreasonable.
DISCUSSION
Because Martinez raises the § 924(c) argument for the first time on appeal,
he must establish that, in accepting his guilty plea, the district court committed
plain error. Under plain error review, we consider “whether (1) there is an error;
(2) the error is clear or obvious, rather than subject to reasonable dispute; (3) the

9

error affected the appellant’s substantial rights; and (4) the error seriously affects
the fairness, integrity or public reputation of judicial proceedings.” United States v.
Miller, 954 F.3d 551, 557–58 (2d Cir. 2020), quoting United States v. Nouri, 711
F.3d 129, 138 (2d Cir. 2013). Martinez’s challenge to the reasonableness of his
sentence, having been preserved in the district court, is reviewed for abuse of
discretion. United States v. Betts, 886 F.3d 198, 201 (2d Cir. 2018).
We conclude that Martinez has not shown that the district court’s acceptance
of his guilty plea was plain error. To explain why, we must venture into the
anything-but-plain evolution of the law underlying Martinez’s claim. We also
conclude that it was within the district court’s discretion to sentence Martinez to a
20-year term of imprisonment for his crimes.
I. The Validity of Martinez’s Conviction for Violating Section 924(c)
A. Section 924(c)
Insofar as is relevant to this case, § 924(c) provides an enhanced punishment
for “any person who, during and in relation to any crime of violence . . ., uses or
carries a firearm.” 18 U.S.C. § 924(c)(1)(A). The enhanced punishment requires a
mandatory sentence of “not less than five years” in prison “in addition to the
punishment provided for such crime of violence,” id. § 924(c)(1)(A)(i), increased
to seven years if the firearm is “brandished,” id. § 924(c)(1)(A)(ii), and ten years if
it is “discharged,” id. § 924(c)(1)(A)(iii). A crime of violence is defined, for

10

purposes of this enhancement, as a felony crime that either “has as an element the
use, attempted use, or threatened use of physical force against the person or
property of another,” id. § 924(c)(3)(A) (the “force” or “elements” clause), or “by
its nature, involves a substantial risk that physical force against the person or
property of another may be used in the course of committing the offense,” id. §
924(c)(3)(B) (the “residual” or “risk of force” clause).
It might surprise a reader unfamiliar with the history of the Supreme Court’s
interpretation of this statute to learn that there is any question as to whether
participating in the affairs of a street gang dedicated to committing violent crimes
through a pattern of criminal acts that included the murder of a person who was
standing innocently on the street constitutes a “crime of violence” under either of
these definitions, or for that matter under any commonsense understanding of the
term “crime of violence.” But two strands of the Supreme Court’s case law
regarding the statute combine to give Martinez a plausible argument that it does
not.
The Court’s opinion in Johnson, which prompted Martinez to raise the
question in the first place, held that the so-called “residual” clause of the ACCA,
which similarly enhances punishment for possession of a firearm by a convicted
felon who had multiple prior convictions for “violent felon[ies],” defined as
felonies that “involve[] conduct that presents a serious potential risk of physical

11

injury to another” was unconstitutionally vague because the clause both fails to
give fair notice to ordinary people of the conduct it covers and “invites arbitrary
enforcement by judges.” 576 U.S. at 596-97 (internal quotation marks omitted).
The Supreme Court thus concluded that neither ordinary Americans nor legallytrained judges are capable of deciding whether a particular category of crime
ordinarily involves a substantial risk of generating physical force.
After a period of confusion in the courts of appeals, including this one, see
United States v. Barrett, 903 F.3d 166 (2d Cir. 2018) (“Barrett I”), vacated, 139 S.
Ct. 2774 (2019), about whether this holding applied not only (as in Johnson and
the ACCA) to statutes that required courts to characterize crimes of which a
defendant had been previously convicted, but also to cases (like this one involving
§ 924(c)) in which risk is assessed with respect to the offense charged in that very
case, the Supreme Court, in a much closer vote, invalidated the residual clause
applicable to Martinez under § 924(c)(3)(B). Davis, 139 S. Ct. at 2319.1 Thus,
Martinez’s underlying offenses cannot be found to be crimes of violence under that
branch of the definition.
But Martinez argues that this Court’s substantive RICO jurisprudence, when
considered alongside the Supreme Court’s reasoning in Johnson and Davis,
1 Only a single Justice dissented in Johnson; six joined Justice Scalia’s opinion for
the Court and two others concurred in the result. In Davis, Justice Gorsuch wrote
for only five Justices, and four dissented.

12

also calls into question whether his convicted offense triggers § 924(c)’s force
clause. The key problem here is that whether a crime itself involves the actual use
of physical force against another person is to be decided not on the basis of what
the particular defendant actually did – in this case, aiding and abetting shooting
and killing John Halley, conduct that plainly involves the use of physical force
against the victim – but whether the offense of conviction necessarily, by its
statutory definition, “has as an element” such a use of force. 18 U.S.C. §
924(c)(3)(A) (emphasis added). That requirement is known as the “categorical
approach.”
B. The Categorical Approach and the Modified Categorical Approach
The categorical approach has had its critics. See United States v. Scott, No.
18-163-CR, 2021 WL 786632, at *22 (2d Cir. Mar. 2, 2021) (en banc) (Park, J.,
concurring) (collecting cases). In enacting statutes like § 924(c) and the ACCA,
Congress has chosen to override the normal sentencing discretion accorded to
judges, who are authorized by statute to consider all sorts of information about
both the present and past crimes of an offender, including the details of specific
offenses, in weighing the seriousness of the offense of conviction and the character
of the offender. See 18 U.S.C. § 3553(a). Instead, Congress requires judges to
impose a mandatory punishment based exclusively on the nature of the particular
offense in connection with which a firearm is possessed, id. § 924(c)(1), or of the

13

offenses of which the person who possesses it has previously been convicted, id. §
924(e)(1).
Tying significant, mandatory penalties to particular types of crimes is
problematic in our federal system, because the definitions of most crimes vary, to a
greater or lesser degree, from state to state, and between the states and the United
States itself. If Congress chooses to attach such consequences only to particular
federal offenses, it can do so simply by listing the covered offenses by their
designation in the United States Code.2 But to incorporate crimes without the use
of such a list, including state crimes, Congress must resort either to listing
“generic” labels of crimes (such as “murder” or “burglary”) that might be defined
differently in different jurisdictions, or provide a general description of the types of
elements that would entail the consequences Congress wishes to include (as in the
“force” and “risk of force” clauses in § 924(c)).
As a result, a crime is covered by the force clause of § 924(c)(3)(A) only if it
categorically, that is to say, in every instance by its very definition, involves the
use of force. United States v. Hill, 890 F.3d 51, 55-56 (2d Cir. 2018) (applying the
categorical approach to § 924(c)(3)(A)). An example will make this clearer. Like
many states, New York makes it a crime to “endanger[] the welfare of a child.”
2 See, e.g., 18 U.S.C. §§ 1961(1)(B)-(G) (listing, by statute number or name,
crimes that count as “racketeering activity” under RICO).

14

N.Y. Penal L. § 260.10. One branch of that statute is very broadly worded: it is
committed when a person “knowingly acts in a manner likely to be injurious to the
physical, mental or moral welfare of a child less than seventeen years old.” Id. §
260.10(1). A person who severely beats a child violates that statute, and clearly
such an instance of endangering the welfare of a child would involve the
application of force. But the statutory definition covers a multitude of sins: driving
while intoxicated with a small child in the car, for example, would fall within the
broad conduct defined as criminal by this provision, but would not involve the use
of force against the child’s person. The offense thus would not categorically come
within the force clause.3
But now imagine that New York had defined the crime differently. Suppose
the statute defined child endangerment as “(1) committing aggravated battery
against a child less than seventeen years old or (2) otherwise knowingly acting in a
manner likely to be injurious to such a child.” And suppose that an indictment
specifically charged a defendant with violating subsection (1) of that statute.
Would we still say that the crime of conviction did not have as an element the use
of force against a person?
3 See United States v. Beardsley, 691 F.3d 252, 254 (2d Cir. 2012) (discussing
child endangerment in the context of a federal statute enhancing penalties for child
pornography offenses based on a prior conviction for “abusive sexual conduct
involving a minor or ward”).

15

The Supreme Court has sensibly held that we would not. In such a case, the
statute is divisible – that is to say it “sets out one or more of [its] elements in the
alternative.” Descamps v. United States, 570 U.S. 254, 254 (2013). When facing
such a statute, courts should apply what is called the modified categorical
approach. See, e.g., id. at 278. Under the modified categorical approach, a court
looks to the charging instrument or other authoritative documents to determine
whether a defendant necessarily was charged with or convicted of a crime
involving the use of force under the subsection. Id. at 272; see also Gray v. United
States, 980 F.3d 264, 266 (2d Cir. 2020) (explaining that, under the modified
categorical approach, a court may look to “a limited class of documents from the
record . . . to determine what crime, with what elements, a defendant was convicted
of” (internal quotation marks omitted)). If so, the sentencing enhancement may be
applied to the defendant.
C. RICO and Section 924(c)
Martinez pled guilty to a charge that he violated § 924(c) by possessing a
firearm during and in relation to two crimes, a substantive and a conspiracy
violation of the RICO statute. In order to determine whether the § 924(c) sentence
enhancement applies to Martinez, we must decide whether either of these crimes
categorically involve the use of force. Hill, 890 F.3d at 55-56. We can assume that
the conspiracy violation is not a crime of violence under the force clause because,

16

as the Supreme Court’s decision in Davis reasoned, a conspiracy offense cannot
categorically involve the use of force, since its key element is simply an agreement
to commit a crime. Davis, 139 S. Ct. at 2325; see also Barrett II, 937 F.3d at 127
(“Davis precludes us from concluding . . . that Barrett’s . . . conspiracy crime
qualifies as a § 924(c) crime of violence.”). In other words, because no violent act
(and under some conspiracy statutes no overt act at all) must be committed in order
to be guilty of the offense, conspiracy offenses are not categorically violent
crimes.
But what of the substantive RICO violation? Our Court has already
addressed this question, albeit before the Supreme Court decided the cases on
which Martinez primarily relies. In United States v. Ivezaj, 568 F.3d 88 (2d Cir.
2009), we applied the categorical approach to decide whether a substantive
racketeering offense was a violent crime for purposes of § 924(c). Rejecting the
defendants’ argument that the elements of RICO violations should be considered in
the abstract, such that the possibility that RICO crimes could be based entirely on a
pattern of non-violent racketeering acts, we held that “[b]ecause racketeering
offenses hinge on the predicate offenses comprising the pattern of racketeering
activity, we look to the predicate offenses to determine whether a crime of violence
is charged.” Id. at 96. Accordingly, we concluded that RICO could be a crime of

17

violence in a case such as Ivezaj, in which “[t]he underlying predicate acts, with
one exception, allegedly involved the use of violent means.” Id. (footnote omitted).
The Ivezaj panel formulated its holding as follows: “where the government
proves (1) the commission of at least two acts of racketeering and (2) at least two
of those acts qualify as ‘crimes of violence’ under § 924(c), a § 1962 conviction
serves as a predicate for a conviction under § 924(c).” Id. (footnote omitted). In his
supplemental brief, Martinez argues that because two of the three predicates acts
supporting his substantive RICO conviction were conspiracies and thus not crimes
involving the use of force, and because under Ivezaj “[a] single racketeering act is
insufficient to sustain” a § 924(c) conviction, the conviction should be reversed.
Appellant’s Letter Br. (Sept. 19, 2019) at 9-10.4

4 Martinez does not question whether intentional murder under New York law is a
violent crime, and neither do we. See Scott, 2021 WL 786632, at *2 (holding that
first-degree manslaughter under New York law is a crime of violence under the
force clause of the ACCA, and noting that “we reject [the defendant’s] reasoning,
which, carried to its logical – or illogical – conclusion, would preclude courts from
recognizing even intentional murder as a categorically violent crime because,
presumably, it is just as possible for a defendant to cause a person’s death by
omission when the defendant’s specific intent is to kill, see N.Y. Penal Law §
125.25(1) (second-degree murder), as when his specific intent is to cause serious
physical injury, see id. § 125.20(1) (first-degree manslaughter).”)

18

But Martinez’s application of Ivezaj to the facts of this case is questionable.
To the extent that Ivezaj purports to lay down a rule that a substantive RICO crime
will be a crime of violence only where at least two predicate acts qualify as crimes
of violence, such a pronouncement would be dictum, because Ivezaj did not
present the Court with a case in which it had to decide whether a RICO pattern in
which the jury found (or a defendant admitted) only one predicate that was a
violent crime would be properly considered a crime of violence for purposes of §
924(c). But that means that whether a RICO charge that is based on one violent
predicate and one or more non-violent predicates, such as we have here, is a crime
of violence is an open issue in this Circuit.5

5 The issue is further complicated by the fact that it is not clear whether the pattern
charged in Ivezaj actually included two violent predicate crimes, as that concept is
now understood. The opinion does not list in detail all of the racketeering acts
charged in the indictment, but it appears that one or more of the charged predicate
acts (in addition to the gambling charge that we acknowledged to be non-violent,
Ivezaj, 568 F.3d at 96 & n.5), could have been found based on a conspiracy, which
under the then-prevailing law of the Circuit, was considered a violent offense
under the “residual” clause if the conspiracy’s object was the commission of a
violent crime, see id. at 94-95 (noting that “Racketeering Act Four” could have
been found based on conspiracy to commit extortion), 95 (citing our caselaw
finding conspiracies to commit violent crimes to be violent under the “risk-offorce” rationale), 96 n.4 (noting that we had found RICO conspiracy to be a crime
of violence “under statutes that provide virtually identical definitions of that term
to the definition provided in § 924(c)”).

19

In fact, the reasoning of Ivezaj arguably supports a conclusion that a RICO
offense predicated on a pattern of racketeering that included one crime of violence
would be a crime of violence under § 924(c). As the government argues, the force
clause defines “crime of violence” to mean “an offense that . . . has as an element
the use . . . of physical force against the person or property of another.” 18 U.S.C.
§ 924(c)(3)(A) (emphasis added). It is not necessary that every element of the
crime involve violence; only one element must do so. See Govt. Letter Br. (Sept.
19, 2019) at 7-8. The basic reasoning of Ivezaj is that the unusual complex crime
defined by RICO covers (like “endangering the welfare of a child”) a multitude of
sins, such that there is a difference between a RICO charge that rests on multiple
acts of mail fraud and one that rests on multiple acts of murder, but that unlike
“endangering the welfare of a child,” a substantive RICO violation requires as an
element of the offense that the jury find, or that a pleading defendant admit, the
elements of particular, separately defined crimes that are incorporated by reference
into the definition of the RICO violation created by § 1962(c).
Ivezaj thus suggests that the proper way to address substantive violations of
RICO is to “look to the predicate offenses to determine whether a crime of
violence is charged.” Ivezaj, 568 F.3d at 96. But if that is so, a RICO pattern that
consists of a murder and a narcotics conspiracy requires a finding of the use of
force against another every bit as much as does a RICO pattern consisting of two

20

murders. Accordingly, we disagree with Martinez’s contention that Ivezaj compels
the conclusion that a RICO offense may be a crime of violence only if any two of
the charged predicate offenses are violent crimes. Whether a substantive RICO
offense in which one of the predicate acts constituting the pattern of racketeering
activity found by the jury or admitted by a defendant necessarily involved the use
of physical force as an element renders the entire offense a “crime of violence”
triggering § 924(c)(1)(A) is an open question in this Circuit.
However we would read Ivezaj in isolation if it were the only relevant
precedent, moreover, its continued authority is debatable. The Supreme Court
precedents discussed above have certainly called into question, if not the premises
directly underlying Ivezaj, many of the principles and precedents that formed the
legal background against which the case was decided.
In arguing that substantive RICO violations can never be crimes of violence
for purposes of § 924(c), Martinez cites those Supreme Court cases to contend that
Ivezaj itself misapplied the categorical approach. Martinez emphasizes that, as
acknowledged above, the elements of RICO are, like “endangering the welfare of a
child,” extremely broad. One violates 18 U.S.C. § 1962(c) by participating in the
affairs of an “enterprise” – defined in § 1961(4) to encompass almost any form of
organized human activity – through a “pattern of racketeering activity,” defined in
§ 1961(5) to include two or more acts of “racketeering activity,” defined in §

21

1961(1) to include many acts which do not involve the use of force by any stretch
of the imagination.6 Thus, considered in the abstract, § 1962(c) arguably covers
both forcible and non-forcible crimes.
On the other hand, if RICO is not as neatly divisible as the hypothetical child
endangerment statute described above, which subdivides cleanly into specific
subsections defining different conduct, neither does RICO neatly fit the pattern of
the actual New York child endangerment statute, which uses very broad language
to define an offense in terms of a conceptual category that could apply both to
forcible and non-forcible conduct. In contrast to such a statute, RICO requires that
the specific crimes that constitute the “pattern” be identified in the charging
instrument, and that the specific elements of those crimes be alleged and proved
beyond a reasonable doubt. In Martinez’s case, the pattern charged included the
offense of murder as defined in N.Y. Penal L. § 125.25(1) (intentionally causing
the death of another person), and Martinez admitted to every element of that crime
in pleading guilty to the charged pattern of racketeering.
That predicate act of racketeering, moreover, was essential not only to
finding that Martinez was guilty of the offense charged, but also to determining the
penalty to which Martinez was exposed. As Martinez was specifically advised
6 Racketeering activity includes crimes ranging from murder to gambling to
forgery to the fraudulent use of a passport. See 18 U.S.C. § 1961(1).

22

during his guilty plea allocution and in the plea agreement that he signed, the
maximum sentence for the substantive RICO count to which he pled guilty was life
imprisonment. But RICO sets forth distinct penalties for different categories of
substantive violations, and thus creates distinct offenses that must be proved
beyond a reasonable doubt, depending on the nature of the racketeering activity
charged. The maximum punishment for a violation of § 1962(c) is ordinarily 20
years’ imprisonment, and becomes imprisonment for life only “if the violation is
based on a racketeering activity for which the maximum penalty includes life
imprisonment.” 18 U.S.C. § 1963(a). Murder was the only racketeering act to
which Martinez pled that carried such a penalty. Compare N.Y. Penal L. § 60.06,
with id. § 105.15, and 21 §§ U.S.C. 841(a)(1), (b)(1)(C), 846. The murder
predicate thus needed to be found beyond a reasonable doubt by a jury or admitted
by Martinez in pleading guilty for the maximum punishment of life imprisonment
to apply.
D. Plain Error
Because Martinez raised no objection in the district court to the validity of
the § 924(c) charge, we must decide this case under the plain error standard of
review. That the case law on which he relies includes cases decided since the
district court’s judgment does not undermine his claim; whether there was “error,”
and whether that error is “plain” – the first two requirements of the plain error

23

standard of review – “is established at the time of the appeal,” not as of the time
that the district court ruled. United States v. Dussard, 967 F.3d 149, 156 (2d Cir.
2020), citing Henderson v. United States, 568 U.S. 266, 279 (2013).
RICO is a highly unusual statute that encompasses within its terms not only
a wide variety of conduct but a wide variety of specifically defined criminal acts
whose separate elements are defined by state and federal statutes incorporated by
reference into RICO’s defined elements. The Supreme Court has never addressed
how the categorical or modified categorical approach applies to such a statute. Nor
has this Court had occasion to address whether Ivezaj’s approach of determining
the status of a substantive RICO offense by looking to the predicate acts that make
up the charged pattern of racketeering activity remains good law under the
Supreme Court’s more recent explanations of the categorical and modified
categorical approaches. Thus, whether or not Martinez is correct that Ivezaj does
not permit a finding that the substantive RICO offense charged in the information
to which he pleaded guilty is categorically a crime of violence, and/or that Ivezaj
was wrongly decided based on current Supreme Court case law, such a conclusion
is by no means “clear or obvious,” Nouri, 711 F.3d at 138 (internal quotation
marks omitted), under the law as it stands today.
First, no directly applicable Supreme Court precedent addresses whether the
categorical approach is to be applied to substantive RICO violations (or, for that

24

matter, to any RICO violations). Certainly, the Court has not specifically addressed
whether (or under what circumstances or by what theory) substantive RICO can be
classified as a “crime of violence” as defined in the “force clause” of § 924(c).
Nor is there clear-cut Circuit authority on the precise question before us. As
we have seen, Ivezaj applied what it characterized as the categorical approach to
decide that RICO offenses are to be judged violent or not depending on the
underlying pattern of racketeering alleged in the particular case, and determined
that, at least where two violent predicate acts are found as part of the pattern, a
substantive RICO offense is a violent crime. Ivezaj, 568 F.3d at 96. It was not
faced with, and therefore had no need to decide, whether a RICO violation
predicated on a pattern that included one violent crime should similarly be
considered a violent crime. There is thus no binding authority on the point.
Second, whatever else may be said about the continuing meaning or
authority of Ivezaj, its one clear message is that whether a substantive RICO
offense is or is not a crime of violence is determined by the nature of the predicate
offenses constituting the charged pattern of racketeering. Id. at 95-96. Whether that
is a correct application of the categorical approach is certainly “subject to
reasonable dispute,” Nouri, 711 F.3d at 138 (internal quotation marks omitted),
under recent Supreme Court precedent refining that approach.

25

But there is even less authority addressing whether the Ivezaj holding can be
upheld as a correct application of the modified categorical offense, that is, whether
substantive RICO is a divisible statute.7 As discussed above, RICO is not precisely
analogous to statutes that have been found to be clearly divisible – but neither is it
precisely analogous to statutes that have been found to be clearly unitary. RICO
violations require the indictment to charge, the government to prove, and the jury
to find beyond a reasonable doubt, the precise elements of particular federal or
state offenses. A jury deciding a RICO case is not asked to apply a broad unitary
statutory formulation (like “endangering the welfare of a child”) to particular facts
to decide whether the facts fit that formulation. That is the situation for which the
categorical approach was devised: does an element that the jury is required to find
in order to convict necessarily include the use of force, such that every finding of
guilt under that statute has found the use of force? Or might the jury have found
the defendant guilty on a theory that does not involve the use of force?
In the case of RICO, as is the case with statutes that have been held to be
divisible, a jury is faced not with deciding whether the defendant engaged in a
7 We note that at least one other circuit has identified substantive RICO as a
“divisible statute” and has applied the modified categorical approach. See United
States v. Williams, 898 F.3d 323, 332-33 (3rd Cir. 2018), cert. denied, 139 S. Ct.
1351 (2019) (applying the modified categorical approach to determine whether a
prior substantive RICO conviction was a qualifying controlled substance offense
supporting a career offender designation under the Guidelines); see also Haynes v.
United States, 936 F.3d 683, 687-92 (7th Cir. 2019) (applying the modified
categorical approach to 18 U.S.C. § 1952(a)(2)(B)).
26

pattern of racketeering by applying a general conceptual definition, but is confined
to deciding whether the defendant committed the particular subset of predicate
crimes charged in the indictment. Every RICO case is thus arguably a crime of
violence or not depending on which particular portions of the segregable language
of RICO’s defining list of crimes that constitute “racketeering activity” are charged
in the case.
In effect, Ivezaj, while purporting to apply the categorical approach, actually
applied a version of the modified categorical approach, dividing the statute into
separate parts: a murder-and-robbery RICO case is different from a mail fraud
RICO case. See Ivezaj, 568 F.3d at 96 (“[W]e look to the predicate offenses to
determine whether a crime of violence is charged.”). The latter would not be a
violent crime, even if the particular conduct proved in a specific case included
some violent acts, because the elements that the jury would be required to find do
not include the use of force. But in a substantive RICO case in which the jury was
required to find, or the defendant to admit, a predicate act that by its nature and
elements requires the use of force, the RICO offense would be, under the logic of
Ivezaj, a violent crime. Id.
Which of these analyses is correct is a complex and vexing question, like
many that the Supreme Court has created with its complex and vexing
jurisprudence with respect to sentencing statutes like § 924(c). But in light of the

27

governing standard of review, we do not need to decide that question here. To
resolve Martinez’s appeal, we need only decide whether the district court plainly
erred by accepting his guilty plea to a violation of § 924(c) predicated on an
admitted pattern of racketeering that includes a predicate act that is a violent crime.
We cannot say that it did.
II. The Substantive Reasonableness of the Sentence
Martinez also challenges the substantive reasonableness of his 20-year
sentence. That issue is far less complicated, and may be dealt with briefly. We
address a challenge to the substantive reasonableness of a sentence based on “the
totality of the circumstances, giving due deference to the sentencing judge’s
exercise of discretion, and bearing in mind the institutional advantages of district
courts.” United States v. Cavera, 550 F.3d 180, 190 (2d Cir. 2008) (en banc). The
standard thus “amounts to review for abuse of discretion.” Id. at 187. We will
reverse only when “the sentence imposed was shockingly high, shockingly low, or
otherwise unsupportable as a matter of law.” United States v. Rigas, 583 F.3d 108,
123 (2d Cir. 2009).
Here, Martinez pled guilty to having participated in a murder – one that,
although he was not the triggerman, was the direct result of his own instigation of
an intended murder of a romantic rival – as part of a pattern of criminal acts
committed in the course of his involvement in a violent criminal street gang.

28

Because the pattern included a murder, punishable under New York state law by a
maximum of life imprisonment, the RICO offense is similarly punishable by a
maximum of life imprisonment. The sentencing guidelines calculated by the
district court recommended a sentence between 292 and 365 months of
imprisonment. The offense was undoubtedly of the highest seriousness, as the
district court recognized. Martinez argues that the sentence was unreasonable
because the district court did not adequately account for his effort to cooperate
with the authorities or his personal characteristics. But the district court
specifically considered those factors, and credited them, while duly noting that
Martinez had not been fully forthcoming in his cooperation. The sentence that was
imposed was hardly excessive for such a crime, and indeed was in line with
defense counsel’s request.8 Arguments for and against higher or lower sentences
can easily be constructed, but we cannot say that the sentence imposed was outside
of “the range of permissible decisions” available to the district court.

8 The defense sought a sentence of “not greater than 20 years,” Appx. 169, noting
that “20 makes sense in my mind . . . drawn from my experience . . . in my other
cases involving similar types of circumstances involving homicide and
racketeering,” Appx. 172. The government sought a sentence of “not less than 20
years.” Id. at 173.

29

Cavera, 550 F.3d at 189 (internal quotation marks omitted).9
9 It is worth noting that, while the sentence imposed was formally two ten-year
sentences, to run concurrently, on the racketeering counts, and a ten-year
consecutive sentence on the firearms count, the mandatory consecutive nature of
the sentence under § 924(c) appears to have played no substantive role whatsoever
in the sentence imposed. Both the government and defense expressed their
sentencing recommendations in terms of a unitary total sentence; the discussion of
the seriousness of the offense rightly revolved entirely around the “senseless”
killing of Halley, Appx. 168, and Martinez’s role in it and remorse over it; and the
district court clearly had the power under the law to impose a lower sentence on
the racketeering charge if it believed that a total sentence of less than twenty years
was appropriate based on the nature of the crimes charged and Martinez’s personal
characteristics, see Dean v. United States, 137 S. Ct. 1170, 1176-77 (2017)
(“Nothing in § 924(c) restricts the authority conferred on sentencing courts by §
3553(a) . . . to consider a sentence imposed under § 924(c) when calculating a just
sentence for the predicate count.”). The sentence that was imposed was
undoubtedly what the district court thought was appropriate, and the division of the
time between the racketeering and firearms charges was a matter of legal form.
These facts reinforce our conclusion that the acceptance of the plea to the firearms
charge was not plain error. Even where the other requirements for a finding of
plain error are present, the Supreme Court has reminded us that courts should not
exercise their discretion to notice even a plain error unless that “error affected the
defendant’s substantial rights.” Henderson, 568 U.S. at 276 (internal quotation
marks omitted). To meet that standard “[i]n a case . . . in which the outcome was a
conviction based on a plea of guilty, the appellant must show that there is a
reasonable probability that, but for the error, he would not have pleaded guilty.”
Dussard, 967 F.3d at 156. Martinez can not meet that standard here, where the
charges in the superseding information were settled upon as part of a negotiated
disposition of the case, the defendant agreed to plead guilty in the hope of
obtaining leniency by cooperating with the authorities, and the ultimate sentence
was based on the seriousness of the underlying murder charge, and would certainly
be reimposed if the case were remanded for resentencing solely on the RICO
counts.

30

CONCLUSION
Accordingly, the judgment of the district court is AFFIRMED.

31

APPENDIX B
U. S. CONSTITUTION
Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.
Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the Assistance of Counsel for his defence.
STATUTES
18 U.S.C. §924(c)
(c)(1)(A) Except to the extent that a greater minimum sentence is otherwise
provided by this subsection or by any other provision of law, any person who,
during and in relation to any crime of violence or drug trafficking crime (including
a crime of violence or drug trafficking crime that provides for an enhanced
punishment if committed by the use of a deadly or dangerous weapon or device)
for which the person may be prosecuted in a court of the United States, uses or
carries a firearm, or who, in furtherance of any such crime, possesses a firearm,
shall, in addition to the punishment provided for such crime of violence or drug
trafficking crime—
(i)be sentenced to a term of imprisonment of not less than 5 years;

32

(ii) if the firearm is brandished, be sentenced to a term of imprisonment of not less
than 7 years; and
(iii) if the firearm is discharged, be sentenced to a term of imprisonment of not less
than 10 years.
18 U.S.C. §1962
(a) It shall be unlawful for any person who has received any income derived,
directly or indirectly, from a pattern of racketeering activity or through collection
of an unlawful debt in which such person has participated as a principal within the
meaning of section 2, title 18, United States Code to use or invest, directly or
indirectly, any part of such income, or the proceeds of such income, in acquisition
of any interest in, or the establishment or operation of, any enterprise which is
engaged in, or the activities of which affect, interstate or foreign commerce. A
purchase of securities on the open market for purposes of investment, and without
the intention of controlling or participating in the control of the issuer, or of
assisting another to do so, shall not be unlawful under this subsection if the
securities of the issuer held by the purchaser, the members of his immediate
family, and his or their accomplices in any pattern or racketeering activity or the
collection of an unlawful debt after such purchase do not amount in the aggregate
to one percent of the outstanding securities of any one class, and do not confer,
either in law or in fact, the power to elect one or more directors of the issuer.
(b) It shall be unlawful for any person through a pattern of racketeering activity or
through collection of an unlawful debt to acquire or maintain, directly or indirectly,
any interest in or control of any enterprise which is engaged in, or the activities of
which affect, interstate or foreign commerce.
(c) It shall be unlawful for any person employed by or associated with any
enterprise engaged in, or the activities of which affect, interstate or foreign
commerce, to conduct or participate, directly or indirectly, in the conduct of such
enterprise's affairs through a pattern of racketeering activity or collection of
unlawful debt.
(d) It shall be unlawful for any person to conspire to violate any of the provisions
of subsection (a), (b), or (c) of this section.

33

